                                    TESTIMONY OF

                                  ROGER C. VIADERO

                                INSPECTOR GENERAL

                       U.S. DEPARTMENT OF AGRICULTURE

                 BEFORE THE U.S. HOUSE OF REPRESENTATIVES

                            COMMITTEE ON THE BUDGET

                                      JULY 19, 2000



Good afternoon, Mr. Chairman, and members of the Committee. We are pleased to be

here today to testify on trafficking in the Food Stamp Program (FSP), a topic of

considerable concern within my agency. Before we begin, I would like to introduce

members of my staff who are here with me today: Gregory S. Seybold, Assistant

Inspector General for Investigations; and James R. Ebbitt, Assistant Inspector General for

Audit.



The FSP continues to be our nation’s primary nutritional “safety net,” with $15.8 billion

in benefits issued to an average 18.2 million people in fiscal year (FY) 1999. The huge

size of this program and its vulnerability to fraud and abuse has caused the Office of

Inspector General (OIG) to continue to devote a significant portion of its total resources

to work in FSP. In FY 1999, we committed roughly 39 percent of our investigative

resources to combat fraud in the program and 9 percent of our audit resources to protect

program integrity.




                                             1
Limited Resources

While we have committed a significant percentage of our special agents to combating

trafficking in the program, the number of agents available for such assignments has

declined significantly and steadily. During FY 1999, we devoted approximately 80

investigative staff years to food stamp trafficking and theft investigations. This was

down from about 150 staff years in FY 1996, or a drop of nearly 50 percent. This decline

was primarily a result of our shrinking staff--agents and auditors reduced by

approximately 25 percent since 1993--and secondarily due to our shifting agents to

investigations of criminal activities that threaten the safety and health of the public, the

agricultural sector, and U.S. Department of Agriculture (USDA) employees. Such

matters included investigations of meat packers who knowingly sold contaminated or

unwholesome meat products to an unsuspecting public and smugglers who brought in

tens of thousands of pounds of agricultural products that were infested with agricultural

pests, as well as an increasing number of threats, assaults, and homicides involving

USDA employees.



The substantial drop in resources that we have been able to devote to combating

trafficking in FSP has led to corresponding drops in our numbers of investigations

conducted and convictions obtained. In FY 1996, we conducted 691 food stamp

trafficking and theft investigations, which resulted in 593 criminal convictions of

individuals and businesses. In FY 1999, we conducted only 242 investigations and

obtained 391 criminal convictions.




                                               2
Food Stamp Trafficking Investigations

With our limited resources we have continued to investigate a wide variety of food stamp

trafficking activities. These investigations have targeted those who defrauded the

program of benefits distributed through the Electronics Benefits Transfer (EBT) system,

as well as those distributed as food stamp coupons, both of which are highly vulnerable to

criminal activity. These investigations, as in past years, often uncovered complex,

criminal conspiracies, involving dozens of individuals who used numerous legitimate and

phony businesses to gather and redeem benefits. Those involved moved their trafficking

operations from one authorized store to another, used the names of bogus owners for their

stores, established counter surveillance and took other measures to avoid detection by law

enforcement authorities. These individuals were also often found to be involved in other

criminal activity, such as drug trafficking, thefts, and violent crimes. I will cover the

types of criminal investigations we have been conducting, update you on our “Operation

Talon” initiative, and briefly mention our audit work in this area.



Street and Retailer Trafficking

We categorize food stamp trafficking activities primarily into two categories: street

trafficking and retail store trafficking. Street trafficking involves individua ls who buy or

barter food stamp benefits for cash or other nonfood items away from Food and Nutrition

Service (FNS) authorized stores. These traffickers generally obtain benefits from

recipients at a substantial discount of their face value, in exchange for cash, drugs, or

other nonfood items, and then sell them to FNS-authorized store retailers who redeem the




                                              3
benefits at full value, or sell them to another retailer. As of September 30, 1999, 161,000

stores were authorized to receive and redeem food stamp benefits whether in the form of

paper coupons or EBT cards. Both the street trafficker and retailer profit when they sell

or redeem the benefits.



We further categorize trafficking activities into those that involve food coupons and EBT.

While much of the country has moved to EBT, which I will discuss later, many States are

still using food stamp coupons. This distribution system has been shown to be highly

vulnerable to large-scale street-type and retailer trafficking, and we continue to uncover

immense frauds.



An example of such a case was recently completed in New York City. In this

investigation our investigators uncovered a food stamp conspiracy involving 44

defendants in 3 boroughs who fraudulently redeemed food stamps worth $63 million at

40 authorized stores. Money used in the food stamp trafficking was derived from drug

trafficking. In order to promote the scheme and conceal the illegal source of funds,

defendants moved money in bank accounts between stores and laundered large amounts

of currency to accounts in Puerto Rico and Florida, held in the name of account holders

in the Dominican Republic. This case has already resulted in 35 convictions, including

four bank officials. More are expected.



Two other examples of cases are those recently completed in Illinois and Mississippi. An

investigation in Chicago resulted in the indictment of a food storeowner and his brother




                                             4
for conspiring to fraudulently redeem more than $1.2 million in food stamps over 10

months. The brothers opened eight bank accounts around Chicago and deposited the

proceeds from illegally obtained food stamps that were received from other merchants

and food storeowners in exchange for cash. A record analysis revealed that only

approximately $295,000 of the over $1.2 million redeemed through the store resulted

from legitimate sales. The owner, who fled the country prior to sentencing, is a fugitive.

His brother was convicted and sentenced to serve 37 months in prison and ordered to pay

restitution of $1 million.



An investigation in Mississippi resulted in the sentencing of a storeowner to 4 years and

3 months in prison after his conviction for food stamp fraud, conspiracy, and witness

tampering. He was also ordered to pay $1.2 million in restitution. The individual had

obtained several authorizations to accept and redeem food stamps in different names and

at different locations, and with an accomplice, had illegally redeemed food stamps worth

about $1.3 million over a 21- month period. The investigation also disclosed that this

individual offered a gang member $10,000 cash to kill his accomplice who had become a

Government witness against him. The accomplice pled guilty to food stamp trafficking

and was sentenced to 6 months in prison.



Other Criminal Activity

As is indicated by the investigations mentioned earlier, our special agents often establish

that individuals involved in food stamp trafficking are also involved in a variety of other

criminal activities. Such activities include drug trafficking, burglary, armed robbery,




                                             5
fencing of stolen property, illegal firearms trafficking, money laundering, and

immigration fraud. Through these investigations, which are often worked with other law

enforcement organizations, we are able to remove from society those who defraud its

programs and endanger its citizens.



A recent example of such an OIG investigation, conducted with members of a Detroit,

Michigan, task force, is that which led to the arrest and conviction of 18 members of an

organization of a major narcotics and food stamp trafficker. The head of the organization

had trafficked narcotics for over 20 years in the area and was seemingly "untouchable"

until he mentioned that he was interested in buying food stamps, which brought OIG into

the investigation. Prior to this time he had insulated himself from law enforcement by

never conducting any drug deals himself, only through his lieutenants. During the course

of the investigation he bought $23,000 in food stamps directly from an undercover

officer. He then sold narcotics to the officer, after which he was arrested. However, after

being released on bond, he was murdered, gangland style, along with his girlfriend. The

rest of his organization was arrested in a citywide sweep. Their convictions for drug

and/or food stamp trafficking led to sentences that ranged from a maximum of life in

prison without parole to a minimum of 5 months in prison. The owner of the authorized

store who was involved pled guilty to food stamp and drug trafficking. He is currently a

fugitive. The neutralization of this major drug trafficking enterprise significantly

stemmed the flow of narcotics in the Detroit area.




                                             6
Another OIG investigation, which we conducted with a task force in Indiana, resulted in

the arrest and conviction of 14 individuals for their involvement in the theft and

trafficking of $728,000 in food stamps from 4 county welfare offices. Sentences ranged

up to 20 years in prison, with $1.1 million in restitution ordered. The investigation

showed that street gang members stole the food stamps from county welfare offices and

traded them for cocaine, marijuana, firearms, explosives, and cash.



Through another ongoing case we are currently working jointly with Immigration and

Naturalization Service (INS) and Internal Revenue Service, we found that food stamps

were trafficked in Rochester, New York, and then laundered through approximately 20

authorized grocery stores. This food stamp conspiracy was conducted to facilitate the

smuggling and illegal entry of approximately 50 foreign nationals from Pakistan. The

group was also involved in a marriage fraud scam and visa fraud. Thirty-six of 38

indicted individuals have, thus far, been arrested and another unindicted individual

arrested. Ten other individuals have also been detained for INS violations.



My office has also continued to lead a special law enforcement initiative known as

“Operation Talon,” which targets individuals who are involved in food stamp fraud and

wanted for other crimes. Under this initiative, OIG has been the intermediary between

social service agencies across the country and State and local law enforcement agencies.

The social service agencies match their food stamp recipient records with law

enforcement agencies' fugitive records. Information on fugitives is then shared with OIG

and other law enforcement officials, who use it to locate and apprehend the fugitives. As




                                             7
of July 12, 2000, Operation Talon has resulted in 6,360 arrests of fugitive felons in more

than 70 metropolitan areas nationwide. These fugitives included numerous violent and

dangerous felons who were wanted for murder, child molestation, rape, and kidnapping.



EBT Implementation

I have briefly addressed food coupons trafficking and some of the other types of criminal

activity associated with food stamp trafficking, now I want to address the EBT system for

distributing food stamp benefits, and our efforts to combat trafficking in food stamp

benefits distributed through EBT.



As you know, the Personal Responsibility and Work Opportunity Reconciliation Act of

1996, also known as Welfare Reform, mandated that all Food Stamp Program benefits be

issued using an EBT system by 2002. States have rapidly moved in that direction.

Whereas about 75 percent of the benefits were issued using paper food coupons in

FY 1997, now about 74 percent of FSP benefits are issued using EBT. Almost three out

of every four recipients receive their food stamp benefits via an EBT system. Per FNS,

as of April 2000, 41 States and the District of Columbia use EBT systems. Thirty-seven

of the systems have been implemented statewide, including the District of Columbia.

The remaining States are in various stages of implementation, from planning, to putting

out requests for proposals, to contract approval. Some of the States in this category, with

average participation exceeding 250,000 people, are Indiana, Michigan, Mississippi, and

Virginia. The two largest Food Stamp Program States are California and New York.

California currently has two counties operating a pilot system and expects to award a




                                             8
statewide contract during 2000. The five boroughs of New York City are issuing benefits

via EBT with the remainder of the State expected to be operational by 2001.



Positive Aspects of EBT

As EBT has been brought on- line across the country, we have observed a significant,

positive impact on trafficking in the FSP. While paper food coupons are generally not

traceable to individual recipients, the EBT system records the date, time, amount,

recipient, and store involved in all benefit transactions. Our investigators manipulate this

information to identify likely trafficking by authorized retailers and food stamp

recipients. We also use the data to document criminal violations and then use the data in

criminal prosecutions. In fact, we have been manipulating and using EBT data in our

criminal investigations since our first EBT investigation in Reading, Pennsylvania, in

1991.



FNS has also developed its own EBT data analysis computer program for detecting

potential fraudulent EBT activity, based on our original EBT trafficking identification

computer program. The FNS system, known as the Anti-Fraud Locator Using EBT

Retailer Transactions, or ALERT, is now on-line and available in all FNS and OIG

regions. We use both ALERT and our own computer program in our investigations.



FNS is also using EBT data to disqualify violating retailers and State authorities are using

information obtained from EBT records to disqualify large numbers of recipients who

have sold their benefits. The number of individuals disqualified as a result of OIG




                                             9
investigative work has risen from fewer than 10 in FY 1994 to more than 10,000 since

FY 1997, almost entirely as a result of EBT investigations.



Investigation of EBT Traffickers

I am also pleased to report that implementation of EBT, as expected, has dramatically

reduced street trafficking in FSP benefits. This has occurred because EBT benefits are

less negotiable ''on the street'' and, thus, less likely to be used as a ''second currenc y.”

Such trafficking, however, does continue to a lesser degree and still requires OIG

attention. For example, investigations in Cleveland, Texas, resulted in the convictions of

two individuals who exchanged “crack” cocaine for EBT food stamp benefits. The food

stamp recipients who purchased “crack” cocaine from these individuals gave them their

EBT cards and personal identification numbers, which allowed the traffickers to use the

cards and their benefits. One subject was sentenced to 46 months in jail and the other to

18 months.



While EBT has eliminated many street traffickers, large-scale trafficking by retailers

continues to be widespread. Again, those involved often traffic in immense quantities of

benefits, have large organizations, and often use sophisticated schemes to carry out the

crimes and to conceal their illegal activities.



A recent investigation in Houston, Texas, is a good example of retailer trafficking in EBT

benefits. The investigation resulted in the conviction of six family members for food

stamp fraud, money laundering, and conspiracy. The 2- year long investigation disclosed




                                               10
that these individuals illegally purchased and redeemed in excess of $2 million in food

stamp benefits via EBT. In this scheme, recipients sold food stamp benefits for cash at

two unauthorized storefronts, whose employees telephoned one of two authorized stores

and gave the recipient's EBT card number, the recipient confidential identification

number, and the transaction amount to employees at the authorized store. The employee

at the authorized store then manually entered the information into the EBT access device

to make it appear that the recipient had actually purchased groceries at that location. The

six subjects were sentenced to prison terms ranging from 3 ¼ years to more than 8 years,

and ordered to pay restitution of $2 million.



In another case, the owners of a store pled guilty in Federal Court in Baltimore, MD, to

fraud in EBT. The EBT records showed that during a three-year period $975,000 worth

of benefits was redeemed through this store. However, bank records showed that nearly

all of the funds deposited into the account were removed through checks written to cash

or the owner, while only $103,000 in checks was written to wholesale vendors. The total

loss to the Government from 1995 to 1999 may have been over a million dollars. Both

co-owners confessed to the crimes. One individual was sentenced to 21 months prison,

the second to 5 months home detention. Both were ordered to pay $500,000 each in

restitution.



Audits of EBT Systems

In addition to conducting investigations of trafficking, we have also taken a proactive role

in attempting to limit fraudulent activities in these programs. My office has taken an




                                                11
active role in monitoring and reviewing EBT systems beginning in 1986 when we

reviewed the Reading, Pennsylvania, EBT pilot project. We view our role as providing

assurances to program managers that the systems are operating as intended, or reporting

the problems that need to be addressed so that the systems operate properly. Reviewing

EBT systems as they are implemented has been a high priority for us and remains so.



Of the 41 States currently operating systems, OIG has conducted reviews at 19, with

reviews at 4 additional States and the District of Columbia in process. We have

concentrated our limited resources on reviewing systems being implemented that will be

issuing a larger volume of program benefits.



This concludes my statement, Mr. Chairman. I thank you again for the opportunity to

address the Committee, and I would be pleased to answer any questions you or other

members of the committee might have.




                                           12
